<html>
<title> - OVERSIGHT OF THE CONGRESSIONAL RESEARCH SERVICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    OVERSIGHT OF THE CONGRESSIONAL 
                            RESEARCH SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JUNE 20, 2019
                               __________

      Printed for the use of the Committee on House Administration
      
      
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                                   
                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
         
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
[Star Print] 38-531              WASHINGTON : 2020           
                  
                  
                  
                  
                  
                  COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
SUSAN A. DAVIS, California             Ranking Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California



                            C O N T E N T S

                              ----------                              

                             JUNE 20, 2019

                                                                   Page

Oversight of the Congressional Research Service..................     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
    Prepared statement of Chairperson Lofgren....................     3
Hon. Rodney Davis, Ranking Member................................     5
    Prepared statement of Ranking Member Davis...................     6

                               WITNESSES

Dr. Mary Mazanec, Director, Congressional Research Service.......     9
    Prepared statement of Dr. Mazanec............................    11
Dr. Susan Thaul, President, Congressional Research Employees 
  Association....................................................    16
    Prepared statement of Dr. Thaul..............................    18

                        QUESTIONS FOR THE RECORD

Dr. Mary Mazanec, Director, Congressional Research Service, 
  responses......................................................    38
Dr. Susan Thaul, President, Congressional Research Employees 
  Association, responses.........................................    57

 
            OVERSIGHT OF THE CONGRESSIONAL RESEARCH SERVICE

                              ----------                              


                        THURSDAY, JUNE 20, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:02 a.m., in room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
(Chairperson of the Committee) presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Fudge, Aguilar, Davis of Illinois, Walker, and 
Loudermilk.
    Staff Present: Sean Jones, Legislative Clerk; Jamie Fleet, 
Majority Staff Director; Lisa Sherman, Chief of Staff for Mrs. 
Davis of California; David Tucker, Parliamentarian; Khalil 
Abboud, Deputy Staff Director; Evan Dorner, Legislative 
Assistant for Mr. Aguilar; Peter Whippy, Majority 
Communications Director; Lauren Doney, Communications Director 
and Deputy Chief of Staff for Mr. Raskin; Courtney Parella, 
Minority Communications Director; Timothy Monahan, Minority 
Director of Oversight; Jennifer Daulby, Minority Staff 
Director; Nicholas Crocker, Minority Professional Staff; and 
Susannah Johnston, Legislative Assistant for Mr. Loudermilk.
    The Chairperson. The Committee will come into order. I am 
happy that we are here today to have an oversight hearing on 
the Congressional Research Service, which is one of the most 
important support services available to Congress.
    The professional staff of CRS provides objective, 
authoritative, and confidential research and analysis on a vast 
array of issues but, like any agency of its size, CRS faces its 
share of challenges and this hearing is intended to have a 
candid discussion of those challenges so CRS can continue to 
support the Congress.
    CRS must have an inspired and diverse workforce fostered by 
an inclusive work environment to operate at its fullest 
potential. Unfortunately, like most agencies, CRS has contended 
with budgetary constraints at a time of increasing workload. 
CRS's budget has remained mostly flat or has been decreased 
substantially in particularly lean years. In fact, CRS's 
operating budget in 2017 was $5 million less than its budget in 
2010.
    These constraints have resulted in less capacity to serve 
Congress. It has resulted in fewer analysts doing more work. 
This pressure, compounded by our failure to invest meaningfully 
in personal office and committee budgets, has adversely limited 
the scope and depth of services available to Congress. These 
pressures also impact employee morale, which can further 
negatively impact agency performance.
    The cycle of asking congressional support staff in our 
legislative branch agencies to meet more demands with fewer 
resources is unsustainable and needs to be changed. Congress 
depends on the expert services of CRS to perform its 
constitutional duties, so when service is impacted, the work of 
the Congress is too. We owe it not just to CRS to improve it 
but to the American people who sent us here to be their voice 
in Congress.
    Although the Congressional Research Employees Association 
represents more than 80 percent of the CRS workforce, a common 
refrain is their exclusion from management decisions. By 
ignoring them and their learned experiences at CRS, management, 
I believe, is doing a disservice to both itself and its 
employees.
    At CRS, the workforce must be involved in the decision-
making and the direction-setting of the Service. The bargaining 
unit should be consulted when actions are being considered that 
will directly impact them and their work. Management should 
listen to the concerns of the employees.
    Our goal here today is to develop a full picture of the 
challenges facing CRS and to devise solutions for the future. 
CRS does not have to face this alone. In fact, it can't. It is 
incumbent on this Committee and this Congress to ensure that 
CRS and the broader Library of Congress are sufficiently 
resourced with adequate support and funding.
    I would now like to recognize our Ranking Member, Mr. 
Davis, for an opening statement.
    [The statement of the Chairperson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you, Chairperson Lofgren.
    I would also like to welcome today's witnesses, Ms. Mary 
Mazanec, Director of the CRS, and Dr. Susan Thaul, who is here 
today in her capacity as the President of the Congressional 
Research Employees Association.
    I look forward to hearing your testimony and having a 
productive dialogue about the current state of CRS and ways in 
which improvements can be made.
    You know, as the Chairperson said, Congress has relied on 
CRS since the early 1900s as its primary support agency for 
public policy research and analysis. Daily--and I can tell you 
this as a 16-year former staffer. I know from working with CRS 
that you provide Members and other staff with authoritative, 
objective, and timely work products that assist all of us, 
Members and staff included, in doing our jobs. An agency with 
such an influential and rich history should be the gold 
standard of research organizations not just here but worldwide.
    However, it is clear to me there are some internal 
struggles that have had a noticeable impact on the agency. I am 
not interested in participating in a public dispute today 
between management and rank-and-file employees. That is not the 
purpose of a congressional hearing. What I am interested in 
doing is having this Committee lay out our expectations for a 
path forward that will drive the necessary institutional 
changes that are needed in any agency.
    CRS must improve their processes and mechanisms for 
establishing the agency's mission and meeting Congress's needs 
in the 21st century: strategic workforce planning, workforce 
training, performance management, recruitment, hiring, and 
diversity management.
    Some of the ways in which this can be accomplished, in my 
opinion, are through surveys and focus groups, both internally 
and externally; IT analytics; management training and employee 
development opportunities, demonstrating how training efforts 
contribute toward improved performance and results. It is a 
must to have a system in place to continually assess and prove 
human capital planning and investment and its impact on 
accomplishing your mission to transparently align individual 
performance expectations to identify specific levels of 
achievement within CRS's mission.
    We hope you conduct employee exit interviews and track that 
feedback to identify any trends that could be advantageous or 
problematic. And we hope we would see a culture that encourages 
a culture that creates and maintains a positive work 
environment, where employees are valued and can maximize their 
potential and contributions to CRS and, in turn, the mission of 
the United States Congress.
    I intend to focus my questions within these areas and hope 
to learn more from our witnesses on the current procedures in 
place at CRS and where there might be room for improvement.
    Let me be clear: I expect the Congressional Research 
Service and the Library of Congress to respond to the concerns 
and recommendations expressed by the Committee today. These are 
not merely suggestions; Congress needs to see action.
    Thank you, Madam Chairperson, and I yield back.
    [The statement of Mr. Davis of Illinois follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you.
    Members are invited to put opening statements in the 
record.
    The Chairperson. I would now like to welcome and introduce 
our witnesses.
    Thanks to you both for being here.
    Ms. Mary Mazanec has served as Director of CRS since 2011. 
Prior to her appointment as Director, Director Mazanec worked 
at the U.S. Department of Health and Human Services, where she 
was Deputy Assistant Secretary and Director of the Office of 
Medicine, Science, and Public Health in the Office of the 
Assistant Secretary for Preparedness and Response.
    She was a Robert Wood Johnson Health Policy Fellow, serving 
as a senior advisor to the Senate Committee on Health, 
Education, Labor, and Pensions and the Subcommittee on Public 
Health. Earlier in her career, she served as a senior policy 
analyst at the Medicare Payment Advisory Commission.
    She received a Bachelor of Science from the University of 
Notre Dame, summa cum laude, and a Doctorate in Medicine from 
Case Western Reserve University Medical School and a Juris 
Doctor from Case Western Reserve University Law School.
    We are also joined by Dr. Susan Thaul. Dr. Thaul has served 
as President of the Congressional Research Employees 
Association, or CREA, since February, 2016. Working at the 
Congressional Research Service as a specialist in drug safety 
and effectiveness, her portfolio includes drug development and 
approval, post-market safety studies and surveillance, drug 
importation, pharmaceutical promotion to consumers and health 
professionals, FDA appropriations, and regulatory science.
    Before joining CRS in 2002, Dr. Thaul worked at the 
Institute of Medicine at the National Academies; the Senate 
Committee on Veterans' Affairs; the National Center for Health 
Services Research, now AHRQ; and the Harlem Hospital Prevention 
Prematurity Project; and the New York City Health and Hospitals 
Corporation. She earned a Ph.D. in epidemiology from Columbia 
University and an M.S. in health policy and management from the 
Harvard School of Public Health.
    I would like to ask the witnesses to try and summarize 
their written testimony in about 5 minutes. We operate under 
the five-minute rule. I think you are familiar with our light 
system, but when you are close to the end, the little yellow 
light will shine. When the red light shines, your five minutes 
are up and we would ask you to try and summarize.
    You are both very distinguished individuals. We look 
forward to hearing from you.
    First, we turn to you, Director Mazanec.

STATEMENTS OF MARY B. MAZANEC, DIRECTOR, CONGRESSIONAL RESEARCH 
  SERVICE; AND SUSAN THAUL, PRESIDENT, CONGRESSIONAL RESEARCH 
                     EMPLOYEES ASSOCIATION

                  STATEMENT OF MARY B. MAZANEC

    Ms. Mazanec. Chairperson Lofgren, Ranking Member Davis, and 
Members of the Committee, thank you for the opportunity to 
speak with you today regarding CRS.
    CRS appreciates its role as Congress's trusted resource. We 
strive every day to maintain that trust and uphold our core 
values of authoritativeness, confidentiality, nonpartisanship, 
objectivity, and timeliness.
    In my testimony today, I want to focus on three main 
things: our commitment to serving all of Congress, workforce 
initiatives, and our strategic planning efforts and future 
directions.
    CRS continues to interact with virtually every committee 
and Member. In fiscal year 2018, CRS provided more than 62,000 
custom products and services, authored and maintained 
approximately 9,000 general distribution products, hosted more 
than 8,600 congressional participants at our programs, and 
published nearly 6,000 bill summaries.
    We continue to support this Congress on a wide range of 
policy issues, including energy, the environment, science, 
healthcare, border security, immigration, foreign affairs, and 
campaign finance.
    CRS engages with Members at the very start of their careers 
in Congress. In January, in cooperation with this Committee, 
CRS was honored to again host the new-Member seminar in 
Williamsburg, Virginia.
    Next, I want to turn my attention to the CRS workforce. Our 
most valuable resource is our corps of dedicated professionals 
who work in concert across the organization to carry out our 
mission. Just last week, during our annual staff appreciation 
ceremony, I had the opportunity to acknowledge the outstanding 
work of my CRS colleagues. I am proud and privileged to lead 
our team.
    CRS continues to broaden and strengthen its research and 
analytical capabilities to ensure that we are able to provide 
the full breadth of public policy and legal work that Congress 
demands.
    CRS, like Congress, is a workplace where every day is 
different. The fluid nature of our work often requires that 
staff prepare intricate analyses and respond to introductory 
questions which lead to more complex requests. For individuals 
who enjoy that challenge, CRS is a place where they can grow 
and thrive.
    With Congress's generous support in fiscal year 2019, CRS 
has successfully strengthened coverage in a number of key 
areas. In the year 2020, the Congressional Research Service 
will continue to bolster its workforce. And even in this tight 
labor market, CRS continues to attract and retain very high-
quality professionals who are drawn to our unique mission to 
support the Congress.
    But as Congress evolves, CRS cannot remain static. We must 
continually evaluate how best to serve the Congress. 
Accordingly, the Service engaged in a strategic planning 
process with the Library. During the process, approximately 130 
CRS staff participated in 12 working groups. The resulting CRS 
Directional Plan identified two main goals: enhance service and 
access for all of Congress and optimize resources utilization.
    Nested under these goals are specific objectives and key 
initiatives that emphasize CRS priorities, such as advancing 
diversity and inclusion efforts and aligning the CRS work model 
to meet Congress's needs.
    An example of a recent key initiative was the public 
release of nonconfidential written products. For the first time 
in our history, in September of 2018, nonconfidential CRS 
written products were made available to the public. Today, more 
than 5,500 products are on Congress.gov. We are on track to 
meet the remaining goals and deadlines by the end of this year.
    Information technology is a critical tool that CRS uses to 
create, deliver, and showcase our work. CRS continues to 
support the Library-wide efforts to centralize information 
technology. We meet regularly with our colleagues in OCIO and 
are continually identifying means to ensure that this 
transition period is seamless and that IT issues are addressed 
promptly.
    Moreover, CRS, in partnership with OCIO, has launched an 
initiative to modernize the Service's IT systems. The goal of 
this critical 5-year initiative is to improve efficiency and 
foster innovation in CRS operations while continuing to protect 
the security and the confidentiality of congressional data. CRS 
is scheduled to test a prototype of a new content management 
system in this fiscal year.
    Finally, on behalf of my colleagues at CRS, I would like to 
express my appreciation to the Committee for its continued 
support. CRS looks forward to the Committee's input so that we 
can continue to be Congress's foremost resource.
    I am happy to respond to your questions.
    [The statement of Ms. Mazanec follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you very much.
    Dr. Thaul, we would be happy to hear from you.

                    STATEMENT OF SUSAN THAUL

    Ms. Thaul. Thank you.
    Good morning, Chairperson Lofgren, Ranking Member Davis, 
the other Committee Members who are here--it is nice to see so 
many here--and staff. Thank you for inviting me.
    I am Susan Thaul, President of the Congressional Research 
Employees Association, CREA. CREA represents about 500 of the 
approximately 600 CRS employees.
    I am happy to sit beside Dr. Mazanec. She has listened to 
CREA. CREA's role, though, is not only to be heard. It is 
sometimes to convince management that there is a problem, that 
there is a solution, and that working together can help.
    We don't always agree. In my written testimony, I mention 
eight such issues, but today I will focus on three: the need 
for a more diverse and inclusive workplace, the need to restore 
confidence in our promotion and performance appraisal 
procedures, and the need to fix the morale crisis in one of our 
six research divisions.
    First, diversity. In 2016, partly because of CRS employee 
answers to the Federal Employee Viewpoint Survey, Dr. Mazanec 
appointed a diversity and inclusion advisory group. It had 
managers and nonmanagers and a CREA representative.
    The group did its homework. The report laid out a 
thoughtful plan. But, somehow, central office staff changed 
much of the report before submitting it to the Director in the 
group's name. After much back-and-forth, the full report was 
issued, but then the report that was posted on the CRS website 
was missing some of those recommendations. I think there was a 
communication opportunity that was missed there.
    Since then, the Director has formed two other groups that 
are looking at diversity issues, and we hope that the outcome 
is different this time. There are so many ideas that we have 
that could improve diversity and inclusion perception and 
reality, but now, three years after the Federal survey, we 
don't see that CRS has an effective plan or a way to measure 
real progress.
    Second, performance appraisals and promotions. Again, here, 
CREA and management are not quite in sync.
    CRS has, from what we can tell, no clearly stated policy or 
standards for promotion, and it desperately needs one. CREA has 
handled performance appraisal cases where there is clearly a 
disconnect between supervisors and employees about what their 
expectations are.
    With access to anonymized data, CREA analysts could examine 
whether promotions and performance ratings vary by 
characteristics of the individual or of the immediate 
supervisor or the division or office. There may be no problem 
at all, but without our knowing that, suspicion abounds.
    When employees perceive actions as unfair, management loses 
some of its moral authority, and that can affect decisions to 
leave. And such attrition is very costly. It takes time and 
money to recruit, screen, hire, and train and that takes time 
away from our ability to serve Congress.
    CREA has raised issues about promotion, for example, again 
and again. I think there is hope. Last month, Dr. Mazanec told 
me that CRS management was interested in looking at promotion 
procedures.
    I propose that management involves CREA now. We have 
experts who advise Congress on these issues. Why not use us to 
boost the chances that the plan we develop and communicate to 
supervisors and employees will succeed?
    Okay, I am going to talk very fast.
    Finally, let's fix the American Law Division.
    ALD is one of the six research divisions within CRS. ALD's 
work is unique, but so are the number and types of complaints 
we hear from its staff. Current and former legislative 
attorneys report a toxic environment. Employees fear speaking 
up.
    The numbers tell us that there is a problem. During the 
last 3 years, attrition in our other five research divisions 
averaged about seven and a half percent per year. For ALD, it 
is a little over 19 percent each year. New hires haven't yet 
gained the experience with the kind of work CRS does. At ALD, 
the number of people who have been here for more than three and 
a half years is about 46 percent.
    Since the Committee announced today's hearing, we have 
heard from many former ALD employees urging us to ask the 
Committee for help. We are asking now: Please urge CRS 
management to meet with CREA former employees and attorneys in 
ALD now. Let's explore the reasons for what we are hearing. 
Let's find solutions. I think they exist.
    We have other issues. My written testimony talks about the 
concern of shifting from experts to generalist staff. We talk 
about work-life balance and issues of how to help that. And 
finally, CREA is concerned that management's fear of the 
potential reaction of some members makes them shy away from 
controversial but important issues.
    But it is time for your questions. I am interested in what 
you suggest. I look forward to beginning working with Dr. 
Mazanec and her staff so that we can turn all our energy toward 
meeting the important and enormous needs of Congress. Thank 
you.
    [The statement of Ms. Thaul follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thanks to both of you for this testimony.
    I would turn now to the Ranking Member, the gentleman from 
Illinois, for questions that he may have.
    Mr. Davis of Illinois. Thank you, Madam Chairperson, and 
thanks for having this hearing.
    It is good to see my colleagues too.
    Mr. Aguilar, how is baseball going?
    Mr. Aguilar. Good.
    Mr. Davis of Illinois. Pretty good? All right. I was hoping 
not to get that answer. I don't want to do a CRS report on the 
last 6 years of baseball victories at the Congressional 
Baseball Game. I am aware of the record, unfortunately.
    Ms. Mazanec, what do you see as the largest challenge for 
CRS today?
    Ms. Mazanec. I believe our largest challenge is to make 
sure that we recruit and retain a diverse workforce with the 
skills and expertise that we need to support you at a very high 
level.
    Mr. Davis of Illinois. All right.
    Ms. Thaul, what do you think the biggest challenge is?
    Ms. Thaul. I think we are a great group, and to keep us 
going and to try to work together to stop these kinds of 
internal frustrations, there is a lot we can do.
    I think we need to figure out how to serve--at what level 
to serve Congress. There is a lot of need for short-term things 
that legislative correspondents and analysts need, and then 
there is also work that a committee staffer might need to 
really help develop a project.
    Mr. Davis of Illinois. Okay. Well, I am glad you brought up 
Congress.
    Ms. Mazanec, how does CRS capture feedback from Members of 
Congress and their staff?
    Ms. Mazanec. Thank you.
    So, several years ago, I believe in 2016, the Library was 
directed to do a survey of Congress about the products and 
services they receive from the Library but especially CRS. CRS 
took the lead on it. We contracted with Gallup. And we got very 
encouraging, very positive feedback. CRS plans to do another 
survey this fall to again try to capture feedback in a more 
formal way.
    But we get a lot of informal feedback on a day-to-day, 
ongoing basis from your staff and directly from Members. I take 
advantage of when I informally meet with Members to try to get 
their input into how we are doing, what they would like to see 
from us, and what we could do better.
    Mr. Davis of Illinois. Okay.
    What type of IT analytics are used to capture information 
about your work products?
    Ms. Mazanec. We have a customer management system where we 
basically put in requests, specific requests, that come from 
Members and their staff. It is a data set that we look at to 
try to spot trends.
    Other things that we look at----
    Mr. Davis of Illinois. So you are talking about trends just 
on the----
    Ms. Mazanec. Number of requests that we----
    Mr. Davis of Illinois. Number of requests. You know, is 
there a trend on the type of request being made, the issue 
areas?
    Ms. Mazanec. Yes.
    Mr. Davis of Illinois. Are you guys using any of the IT 
data analytic tools----
    Ms. Mazanec. Yes.
    Mr. Davis of Illinois [continuing]. Like Google has to look 
at how many people have actually opened the reports that you 
have put out there?
    Ms. Mazanec. Yes. We do that too. We do that in cooperation 
with OCIO. We capture how many times someone goes to a certain 
page, how many times a certain report has been viewed. We are 
doing that both on CRS.gov but we are also tracking 
Congress.gov, where our reports are being pushed out to the 
public.
    Mr. Davis of Illinois. Okay.
    So, I mean, you have shown us that you get feedback from 
Members of Congress, our offices, our staffs, our committees; 
you use IT analytics.
    How do you capture input from your employees that may 
influence your strategic plan?
    Ms. Mazanec. The strategic planning process that we 
embarked on--it was probably a couple of years ago now--was 
very inclusive. And we did that by design, and it was, I 
believe, a significant change from past practice.
    We invited staff to sign up for work groups, and we also 
involved staff in a variety of venues, including focus groups, 
townhalls. I myself conduct all-hands meetings. The various 
divisions and offices will also have staff meetings. I have an 
open-door policy if someone wants to come in directly to me, to 
sit down with me and pitch an idea or to express a concern.
    So I think we do this on a regular basis. There is always 
going to be room for improvement, though.
    Mr. Davis of Illinois. I don't have much time left.
    Ms. Thaul, do you agree?
    Ms. Thaul. In large part, yes. I think the planning process 
this year did involve staff at many different levels.
    What we don't--once all that information comes in, we are 
often not included in the discussions, though. And I think we 
can do that better.
    Staff meetings are good. The problem is people don't always 
want to speak up. And we have to find a way to have that be a 
safe environment where, if someone wants to speak about a 
supervisor, that they are not immediately labeled a whiner. 
Some people might be whiners, but some people might have 
legitimate concerns.
    Mr. Davis of Illinois. Thank you.
    I yield back.
    The Chairperson. Thank you very much.
    The gentleman from Maryland is recognized for five minutes.
    Mr. Raskin. Madam Chairperson, thank you so much.
    I want to thank both Director Mazanec and Dr. Thaul for 
being with us today and sharing your insight. I have always 
thought that the Congressional Research Service is an enormous 
asset to our work in Congress and an international marvel when 
you think about it--the idea that you have one independent, 
objective research authority for Members of Congress from 
whatever political persuasion and that they get us information, 
in fact, and we can rely on them.
    I want to thank you both for the work that you are doing. 
We are grateful for your expertise.
    Let me start with you, Madam Director. Can you explain what 
is the peer-review process at the Congressional Research 
Service? And are the CRS products ever peer-reviewed by 
externally entities?
    Ms. Mazanec. We have a multitiered review process. It 
begins with peer review, but then there is also section review, 
division review, and then there is final review in the front 
office. The review process is designed to ensure that the 
product is consistent with our core values of objectivity, 
authoritativeness, nonpartisanship, et cetera.
    I think, for the most part, we do little external peer 
review. There may be certain parts of a report that we ask an 
outside expert to look at to make sure we get it right.
    I feel, having written the policy reports, that the peer-
review process is an asset. It helps us make sure that we have 
a comprehensive product that is of most help for Congress, and 
I always welcomed it. I think part of the challenge is we are 
working on very tight deadlines sometimes, and it takes time to 
move a product through the process and have a back-and-forth on 
the content.
    Mr. Raskin. Gotcha.
    Dr. Thaul, let me come to you. A lot of my constituents 
work at the Congressional Research Service because I represent 
Maryland's Eighth Congressional District, which includes 
Montgomery, Frederick, and Carroll County. I definitely know a 
number of people who come down to work here for CRS.
    You mention in your testimony the need to create a fairer, 
more hospitable work environment. That is something that is 
obviously of concern to me since I have constituents who work 
there. What are the obstacles to creating such a work 
environment, and what are the specific problems that you are 
identifying?
    Ms. Thaul. Let me preface by saying I love working at CRS. 
I was excited to come here. I have been here 16 years. And 
there is most--that is wonderful. We are talking about things 
on the edge, and we are trying to fix them now or address them 
now before they spin out.
    There are two--we want people to be treated--to be 
respected for our work and for who we are. And that means, if 
we are respected to advise Congress on Earth-changing issues, 
why are we not respected on things like how we organize our 
day. Or there are some flexibilities that Congress, the 
Library, and CRS grants us, but different supervisors apply 
those differently.
    These are minor things compared to other things that your 
Committee deals with, but it is the everyday pressure that then 
affects how we might do our work.
    Mr. Raskin. Are you in a process where you feel that you 
can be heard and there is a collaborative, conciliatory 
framework for dealing with these?
    Ms. Thaul. We are doing better. I think we have made some 
progress with that.
    The one thing that I don't think we have figured out how to 
do yet is if--just as not all employees are ace perfect, not 
all supervisors are perfect. I mean, you have all seen that in 
your lives. And our impression is, if we want to bring that up, 
the reaction is that that is not a valid concern.
    Mr. Raskin. Okay, so--but this is normal workplace stuff 
that----
    Ms. Thaul. Absolutely, yes.
    Mr. Raskin. Okay. And you are not dealing with problems of 
harassment or discrimination that are not being effectively 
addressed?
    Ms. Thaul. There are ways we can address that through the 
Library process. Now, partly because of your Committee, we can 
also go to--they have new initials now--Office of Congressional 
Workforce Rights.
    Mr. Raskin. Okay.
    Ms. Thaul. There are kinks along the way, but basically the 
process is there.
    Mr. Raskin. Okay.
    Finally, Ms. Mazanec, did you want to respond to any of 
that?
    Ms. Mazanec. I certainly am willing to open a discussion 
about how we can communicate better. It seems like there is a 
communication issue raised by a number of concerns that Dr. 
Thaul raised and how to capture input and feedback.
    I meet with Dr. Thaul on a regular basis. My management 
team meets with other representatives in CREA on a regular 
basis. Maybe some of their concerns can be brought up in those 
venues.
    We also have other avenues where individuals can bring a 
concern directly to me anonymously through a Director's comment 
box. But if there are other ways that we can improve 
communication, I am open to discuss it.
    Mr. Raskin. Terrific. Thank you.
    I yield back, Madam Chairperson.
    The Chairperson. Thank you very much.
    The gentleman from Georgia is recognized.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Thank you both for being here today.
    Director, what is the mission of CRS?
    Ms. Mazanec. The mission of CRS is to provide information, 
research, and analysis on all legislative issues in front of 
Congress to aid them in carrying out their constitutional 
duties.
    Mr. Loudermilk. Thank you.
    Do you agree with that, Dr. Thaul?
    Ms. Thaul. I am sorry. I got a note and didn't----
    Mr. Loudermilk. The mission of CRS.
    Ms. Thaul. To serve Congress, to help you make better 
decisions so that it is better for everybody.
    Mr. Loudermilk. Thank you. I appreciate that----
    Ms. Thaul. That is a summary.
    Mr. Loudermilk [continuing]. Because that is the way I 
feel----
    Ms. Thaul. Yeah.
    Mr. Loudermilk [continuing]. And I have had some concerns 
about other aspects of the Library getting away from the idea 
that they are predominantly a library that exists for Congress. 
So it is refreshing to hear that.
    And what you do is extremely important. As I am sure many 
of my colleagues here use CRS extensively, we do, and it is 
extremely important that--not that CRS be bipartisan but it be 
unbiased, you know, not taking one side or the other.
    And when this hearing was announced, I met with all of our 
legislative staff, and I just asked them, what is your opinion 
of the service that we are getting from CRS? And it was, for 
the most part, very positive.
    The only negative feedback we got was, on certain 
occasions, in certain departments, it may not be unbiased. 
There is some opinion put in, not in the reports but in the 
conversations that they have. But we can work through that.
    The process, Director, for getting a report approved, is 
that process transparent to the employees? Do they know how 
that process works?
    Ms. Mazanec. Absolutely. They are actively engaged with the 
individuals reviewing their report. And there should be a 
dialogue or a back-and-forth. If you ask a peer to review your 
work and they take the time to do it and they submit comments, 
I would hope that that was the start of a conversation. That is 
the way it should work.
    Mr. Loudermilk. Yeah.
    Dr. Thaul, do you agree that it is transparent?
    Ms. Thaul. The process is transparent. Some people handle 
it better than others----
    Mr. Loudermilk. Okay.
    Ms. Thaul [continuing]. I mean, as in anywhere. I think 
part of the problem is the expectation of what a CRS report is 
has sort of varied over time, and there is a little confusion 
about that. I agree that there should not be personal 
opinions----
    Mr. Loudermilk. Right.
    Ms. Thaul [continuing]. In a report and probably not in 
conversation either. But I think that it serves Congress best 
if we, in addition to giving you a description of ``this is 
what has happened before, this is what this bill would do, this 
is what this other bill would do,'' if we could add an analysis 
to give it a framework of how it fits into what we have seen, 
those of us who have been hired as experts in our field.
    I think, partly because of the volume of reports and 
requests, we don't have time for that, and partly because we 
seem to be moving away from that.
    Mr. Loudermilk. Okay. Thank you.
    Director, how do you guys advertise for positions? If you 
need to fill a position, where do you go and seek?
    Ms. Mazanec. Our positions are posted in USAJobs.gov, but 
we also send the descriptions or the announcements rather 
broadly. If we are seeking a particular set of skills, we may 
approach professional organizations, societies, academic 
institutions. We have sent announcements over here, to offices 
over here. And that is one of the ways we are trying to ensure 
that we have a diverse applicant pool.
    Mr. Loudermilk. You steal our guys. Oh, I see.
    When it comes to the hiring process, what is the process 
for hiring someone? You identify someone has a skill set. How 
do you transition that person from being an applicant to being 
an employee? Or who makes that decision?
    Ms. Mazanec. The Library follows a merit selection process, 
and we follow that process. After we post a job and the 
position closes, the applications are reviewed to make sure 
that they meet the minimal requirements outlaid in the position 
description.
    Then those candidates are invited in for a structured 
interview where all applicants are asked the same questions. 
There may be a second--after the leading candidates are 
determined, there is usually one hiring manager.
    Mr. Loudermilk. Okay.
    Ms. Mazanec. There is a panel, a hiring panel, but one of 
the individuals on the panel is the hiring manager. We try to 
ensure that the members who are on the panel also are diverse.
    Then an individual may be brought back to clarify responses 
or to meet other people that they will be working with.
    Then a decision is made. We work through the Library's HR 
office. They extend the offer. After the offer is accepted, the 
person is scheduled to come on board. They are put through a 
Library orientation, and then CRS conducts its own orientation.
    A lot of individuals who join CRS, especially analysts, 
they are assigned a mentor. And it is a lot of mentorship on 
the job, learning by doing.
    I want to talk to a lot of the new people that we brought 
on board recently to ensure that the onboarding process is 
meeting their needs. And I have that planned to do, to meet 
with some of the new hires in the last 2 years.
    So that pretty much is how we bring people on board.
    Mr. Loudermilk. Okay. Thank you.
    I see my time has expired, so I will yield back the 
remaining time I don't have.
    The Chairperson. Thank you very much.
    The gentlelady from California is recognized.
    Mrs. Davis of California. Thank you very much, Madam 
Chairperson.
    Thank you both for being here.
    I know that you mentioned, Director, that CRS is the 
foremost resource for Members of Congress. I can tell you, by 
traveling around, we are kind of the envy of a number of other 
democratic bodies as well because of how well-performing and 
organized that is.
    But I also know that the people are at the heart of that. 
And so that is why I wanted to follow up with a few questions 
around the people themselves.
    And one of the things that I am hearing is that there are a 
number of policies, perhaps in more divisions than not, among 
relationships that are strained for whatever reason.
    Ms. Mazanec. Yes.
    Mrs. Davis of California. I wonder if you could speak to 
that a little bit more and what you see. Clearly, communication 
is often at the heart of that, but are there some policies that 
are different and that people interpret differently, whether it 
is leave policies or checking in, making sure that, you know, 
they have to sign something if they are leaving? What is it 
that you think may be at the heart of some of those concerns?
    Ms. Mazanec. I think you have already identified it. I 
don't think there are different policies; I think it is the way 
the policies are implemented.
    Several years ago, I set up a policy working group that is 
run out of my counselor's office. I tasked them to review all 
the policies in the Service and to clarify and update the 
policies and that was an attempt to have a more uniform 
application of the policy.
    If there is still a need for clarification, my counselor's 
office will talk to managers, talk to staff to further clarify 
the policies.
    Mrs. Davis of California. Yes.
    Dr. Thaul, how would you respond?
    Ms. Thaul. Right. I think that at the top level there are 
some good flexibilities that CRS policies cover.
    Dr. Mazanec has said that part of her management style is 
to let the managers make their own decisions, which, in 
general, I support because different offices have different 
flows and need different things. But sometimes within the same 
office there are different decisions made for different people, 
and that creates stress.
    I mean, that is not unlike other workforces, but you are 
asking us about ours.
    Mrs. Davis of California. Yes. I think I was hearing that 
you are both interested in taking a look at that and seeing how 
can we----
    Ms. Thaul. Yes.
    Mrs. Davis of California [continuing]. We improve that, and 
I appreciate that.
    The other issue really is a little bit--I think my 
colleague has raised it somewhat. I might do it a little bit 
differently. There has always been a policy of nonpartisanship, 
but now I think there seems to be a concern--maybe this is more 
in the Law Division--of one of neutrality, that providing 
facts, obviously, is critically important to CRS, but that 
there are some issues that are not even raised that should be.
    Would you like to respond to that?
    Ms. Thaul. May I go first? Okay.
    Ms. Mazanec. Sure.
    Ms. Thaul. She is my boss.
    Mrs. Davis of California. I know. I looked at--whoever is 
comfortable----
    Ms. Thaul. But we coordinated our----
    Ms. Mazanec. Thank you. I am fine.
    Ms. Thaul. The--now I have forgotten the question. I am 
sorry.
    Mrs. Davis of California. Well, it is nonpartisanship 
versus neutrality. How do you see that?
    Ms. Thaul. Thank you.
    Some issues need--they are so critical that there are--
there are facts, but there is also talking about the 
ramifications of those. Sometimes that discussion can be 
unbiased and nonpartisan but it is not always neutral, in that 
an expert will have experience and a concept to put in. It is 
important that they identify that. I think the review process 
helps a lot.
    But sometimes we are shying away from--several years ago--
this had nothing to do with the current administration--I was 
counseled that I could write a descriptive paper on something 
but not to get into the possible other ways to organize the 
program that they were talking about, and I was told, ``Don't 
do that. It is too controversial.''
    Mrs. Davis of California. Yeah.
    Ms. Thaul. And----
    Mrs. Davis of California. Does that affect morale?
    Ms. Thaul. Yeah. Well, it makes me feel----
    Mrs. Davis of California. Yeah.
    Dr. Mazanec.
    Ms. Thaul [continuing]. You hired me for my----
    Mrs. Davis of California. Sure. I am sorry. My time is 
limited. I just want to give her a chance.
    Ms. Mazanec. So I have a different point of view. It is 
really not neutrality. What we strive for is objectivity. It is 
one of our core values.
    I would also assert--and maybe we have to reinforce this in 
communication--that analysts are supposed to be analytical and 
that not only should they present the facts but they should 
also be analytical. Where we draw as the line is we don't make 
recommendations, we don't advocate. We inform the debate, but 
we are not here to tell you what the best policy option is.
    We do tackle controversial subjects. I would point you to 
reports on some of the topics that we have reports on and we 
also do that with our targeted research requests, which are 
confidential. We generate a lot of confidential memos that are 
on controversial issues.
    Mrs. Davis of California. Yes.
    Thank you very much. I know my time is up.
    The Chairperson. Thank you.
    The gentlelady from Ohio is recognized.
    Ms. Fudge. Thank you, Madam Chairperson.
    Thank you both for being here today.
    Let me just ask you, what is your policy, if any, on 
diversity? And talk to me about the diversity of your staff.
    Ms. Mazanec. Diversity in the workforce is a top priority 
of mine. I think it is important, it is critical to bring all 
perspectives to the issues that you are grappling with.
    I can just give you a little bit of data because I have 
looked at it recently. We looked at basically three years--
2009, 2013, and 2018. This is self-reported data. Twenty-eight 
percent of the staff identified themselves as being part of a 
minority group.
    However, over the course of that time period, there have 
been some shifting among the various minority categories, and 
we have lost diversity at the most senior grades in the 
Service.
    This is a high priority. We are trying to identify specific 
actions that we can do and put in place to make sure that our 
applicant pools are diverse. As Susan mentioned----
    Ms. Fudge. Excuse me just one--forgive me.
    Ms. Mazanec. Yes.
    Ms. Fudge. Do you have any people of color in your senior 
leadership?
    Ms. Mazanec. Yes. It depends on how you define ``color.'' 
If it is African American, no. We lost two African American 
senior-level leaders in my tenure at CRS. They left to pursue 
preferred opportunities. One told me she wasn't even looking. 
Her dream job dropped out of the sky, and she wanted to take 
the opportunity.
    Ms. Fudge. So there are no people of color in upper 
management?
    I would just suggest to you that if you are having problems 
finding them, we know people everywhere, and we can make 
recommendations to you.
    Ms. Mazanec. Okay.
    Ms. Fudge. Not that I have any right now. I have no idea. 
But I think that we should not have an agency or a department 
as involved in what we do every day as you are that has no 
person of color in your leadership.
    Ms. Thaul. We have started to look at some of the numbers. 
The numbers don't tell the whole story because I know there are 
efforts to recruit minorities.
    But when we looked at the percentage of African American--I 
don't have the numbers in my head, but African Americans among 
the baby-boomer group in the Library, in CRS, that was a higher 
percentage of minorities in that group, my group, than in the 
millennials who are the more recent hires. And that is really 
concerning, because we are talking about diversity and 
inclusion but it is not showing. So there is work.
    Ms. Fudge. Okay. So tell me, then, how many people of color 
do you have amongst your ranks of analysts and attorneys.
    Ms. Thaul. I would have to look that up and tell you.
    Ms. Mazanec. I can get back to you with those numbers, the 
percentages----
    Ms. Fudge. Let me just say that the Speaker of the House 
has made diversity one of her main issues.
    Ms. Mazanec. Yes.
    Ms. Fudge. I would certainly hope that every single person 
that has a role to play in hiring or promoting or including 
people of color would make sure that that is done on a 
consistent basis.
    It is very difficult for me to understand that, as many 
young lawyers and people as are around this Hill, there are not 
people that you can find. They call my office looking for jobs 
every day.
    Ms. Mazanec. Yes.
    Ms. Fudge. There is something that is not quite right. But 
please let me know what your progress is on that. I will be 
waiting to hear how things progress.
    Ms. Thaul. Thank you.
    Ms. Fudge. Thank you, Madam Chairperson. I yield back.
    The Chairperson. Thank you.
    The gentleman from California is recognized.
    Mr. Aguilar. Thank you, Madam Chairperson.
    Dr. Thaul, you brought up concerns with the American Law 
Division and its high turnover rate. Can you talk a little bit 
about that division? Why is it different? And, in your opinion 
why do we have a higher turnover rate in that area?
    Ms. Thaul. That is a very good question, and I would like 
to work towards finding that.
    Some of that is normal. It is that people retire. Some of 
it is people who may be retirement-age who are fed up or who 
are feeling unappreciated and they leave. So that looks like a 
normal retirement when we feel that it is not.
    What is really concerning now is that the new people coming 
in are picking up on the tensions even if they are not affected 
by it and are looking for other jobs. And this could be such a 
great place to work.
    I am not part of that division. We have trouble--people in 
that division are very wary about speaking to the union because 
they have gotten the message that they are not supposed to do 
that. And I am not saying that that comes--that anyone has said 
that, but it is clearly--it is passed on from person to person. 
We have to somehow break that and I think the Committee, by 
asking these questions, might be helping start that 
conversation.
    Mr. Aguilar. Is your leadership team within the union--do 
you have someone from that division? A shop steward or----
    Ms. Thaul. No.
    Mr. Aguilar. How does it function?
    Ms. Thaul. We have governors and stewards in almost all of 
the divisions. You know, it turns over. Sometimes there is no 
one from the American Law Division. I think they see that as a 
career-stopper. That may not be true, but I think they are 
right.
    Mr. Aguilar. Sure.
    Ms. Thaul. So we get people meeting us for coffee offsite 
or stopping by my office after-hours. I mean, it is almost--it 
is really disturbing. And it is time to address it.
    Mr. Aguilar. From your position, what is something we can 
do to address the turnover rate? I hear what you are saying. 
There are a lot of different factors----
    Ms. Thaul. Yes.
    Mr. Aguilar [continuing]. Including a snowball effect of 
folks leaving as well as general attrition that you indicated. 
What else can we do to blunt that turnover?
    Ms. Thaul. I think that is a role of management. What 
people have reported to me is that there are real problems in 
the management and next-level supervisors in that division. And 
it seems from the outside, it looks like Dr. Mazanec is not 
engaging with that--not causing it, but not dealing with it.
    I think we need to as you said, Representative Davis, this 
is not a time to talk about personnel issues, but it is time to 
talk about how we are going to talk about it. And I think----
    Mr. Aguilar. Sure.
    Ms. Thaul [continuing]. If you asked us to do that, maybe 
that would help.
    Mr. Aguilar. Sure.
    Director.
    Ms. Mazanec. I am aware of the concerns about the American 
Law Division. The American Law Division did have a bump-up in 
attrition rates. I think it was concurrent with a management 
initiative to rebalance portfolios over there. It was also at a 
time when our staff was decreasing in numbers.
    Unequivocally, I will tell you that the American Law 
Division produces exceptional work that is held in very high 
regard. But it is a very difficult job. They are the smallest 
division, and they have 37 legislative attorneys. Not only do 
they do the legal analysis on the legal infrastructure under 
policy issues, but they also tackle the purely legal issues.
    I meet regularly with the management in ALD. I have brought 
the concerns to them. We have strategized as to how we can 
address the concerns.
    Part of the problem is trying to pin down the root cause 
though. The head of the American Law Division has taken efforts 
to improve communications, both within the divisions and with 
the other divisions, because there is cross-collaboration 
across the Service.
    Mr. Aguilar. Sure. If I could interrupt and ask one last 
question, building off what my colleague from Ohio mentioned.
    Director, if I define ``person of color'' as African 
American, Latino, Asian American, Pacific Islander--that would 
be my definition.
    Let me get to the question. How many direct reports do you 
have?
    Ms. Mazanec. I think I have about 11 direct reports of 
which 10 are members of my Senior Management team. All the 
assistants and associate directors are direct reports to me, as 
is the Deputy Director of CRS.
    Mr. Aguilar. Okay. And out of those 12, how many people of 
color as I defined?
    Ms. Mazanec. So you broadened the definition----
    Mr. Aguilar. I did.
    Ms. Mazanec [continuing]. Of ``color.'' I am doing a quick 
count in my head. One.
    Mr. Aguilar. Okay. One in the Senior leadership team that 
reports to me, one who is not Senior level and one among five 
deputy assistant directors.
    Ms. Mazanec. One.
    Mr. Aguilar. Thank you.
    Thank you, Madam Chairperson.
    The Chairperson. Thank you.
    Thanks to all the Members and both witnesses.
    I think this has been an important hearing for a couple of 
reasons.
    First, the attendance here shows that we have very strong 
interest in what is going on at CRS.
    Two, although there are different viewpoints being 
presented by CREA and Dr. Mazanec, it is very clear that you 
are both committed to CRS and have an interest in making this 
work well. And that, actually, is--if you want to take a look 
and hope for the future, that is the bottom line that gives me 
hope for the future.
    In terms of follow up, obviously we don't want to have a 
public--it would not even be functional to have a public 
discussion of personnel items or anything of that nature. But I 
do think that it sounds like there are opportunities for 
improvement in certain areas.
    The American Law Division is something I have run into in 
one of my other committee assignments, the Judiciary Committee. 
I will say, the members of the division have performed 
admirably and provided a great service to the Congress as 
they--you know, no one is questioning their motives; they are 
just the analysts.
    But it is not the easiest thing in the world to manage a 
bunch of lawyers or to manage a bunch of Ph.D.s, for that 
matter, either. I mean, these are highly talented people who 
have their own views on how things should work. It is a very 
different environment than certain other management challenges.
    I am wondering if, at some future date--I don't want to set 
a timeline--we could have an update on progress being made in 
some of these divisions.
    I will say, the idea that, of the 12 direct reports to you, 
only one is a person of color is a concern. We are strengthened 
as an organization if we have diverse viewpoints. All of us are 
products of our experience. And we know that academic analysis 
has shown that we will actually get better work product if we 
have different viewpoints approaching that work product. So 
let's take that very seriously.
    I just want to ask a question, because I get complaints--
you know, being the Chairperson of this Committee is an 
interesting experience because you get feedback from Members in 
a very different way.
    The CRS provides experts for committees in analyzing very 
serious problems that are very complicated. But sometimes 
Members call over for something that really isn't that 
complicated. And I will give you an example from my own office 
recently.
    There are a whole bunch of Medicare for All bills that have 
been introduced, and they are all different and I thought, 
wouldn't it be great if CRS could just do a quick and dirty, 
not how are they going to change society, not what they cost, 
just, here are five bills, and here is how they differ.
    After substantial back-and-forth, CRS said they couldn't do 
that for me, which is fine. I mean, Vox News did it, and I 
posted Vox News instead. I could have had an intern provide the 
analysis in the time it took in the back-and-forth between my 
office and CRS.
    Because some of these questions are simple. They are not 
really complex, sophisticated analysis that is being asked for 
by Members. And I do get complaints from other Members that 
they can't get, like, the dumb stuff done.
    And I am wondering if there is a way to manage the office 
so that, not to the detriment of the more sophisticated 
analysis, which is the guts of your work, but the simple things 
could be answered for Members.
    That is question number one. You don't have to answer now.
    I think, to some extent, I remember being on the Hill as a 
staffer in the 1970s right after CRS was established, and the 
role played then was very different than today because we have 
Google now. We don't need to call CRS for some of these 
answers. And I think that has probably changed the whole nature 
of what you do.
    And yet the authoritative nature of what CRS is, still 
might call on the Congress to ask you, because you are known to 
be objective, you know, what are the facts on this simple 
question, that we don't want to quote Google, we want to quote 
CRS.
    Director Mazanec, can you address that at all?
    Ms. Mazanec. Well, you have identified one of the 
challenges that we have as a Service, that not only are we 
trying to balance the highly analytical work, we are also 
responding to a lot of basic informational questions.
    What we try to do when we get a request is call back the 
requester and really identify what do they need from us, so 
that we try to meet your needs on your timeline.
    I was aware of the request that your office put in. I am 
sorry that we didn't get you what you needed. The analyst did 
talk to your staffer----
    The Chairperson. Multiple times.
    Ms. Mazanec [continuing]. Multiple times to try to 
clarify----
    The Chairperson. And I have the email. I don't want to 
revisit that, because Vox News----
    Ms. Mazanec. Yes.
    The Chairperson [continuing]. Did what we did, and we 
posted their report online. It is just a quick and dirty 
difference, what are the differences in the bills. I don't mean 
to revisit that.
    But the question is, are you set up to deal with Members 
who have really simple questions that they want CRS to answer?
    Ms. Mazanec. We do have a cadre of research librarians that 
provide a lot of responses for purely informational requests. 
They are embedded with the analysts, and they work side-by-
side.
    We have tried to diversify our staffing structure. We 
introduced a position of a research assistant, which will 
hopefully also be able to work with the senior analyst to maybe 
unload the senior analyst by taking on some of the requests. 
Obviously, they would have to be reviewed by the senior 
analyst.
    So we have tried different things.
    The Chairperson. Right.
    Let me just ask this, in closing the hearing. And without 
objection we will keep the record open for five legislative 
days for Members who wish to submit statements or additional 
questions.
    The Chairperson. But when a toxic work environment develops 
anyplace, it is really hard to break that up, because sometimes 
it feeds on itself. It is almost independent.
    Dr. Thaul, it sounds like your concern is that may have 
developed in some of these divisions. It is very difficult to 
unwind that. But it sounds like CREA is willing to be an ally 
in unwinding that----
    Ms. Thaul. Yes.
    The Chairperson [continuing]. Which is a very positive 
thing.
    So, you know, given that we have challenges--the management 
challenge of managing people who are as educated and expert as 
you are is difficult in an environment where resources have not 
grown and the challenges have. It is all a big challenge and it 
is not going to be any easier if people don't feel good about 
the workplace.
    I am thankful that you are willing to work together. I am 
looking forward to sometime in the near future where we can 
touch base with you as a Committee and kind of get an informal 
assessment of the growth that you have made.
    I would thank you both for your important testimony and 
note that, you know, it is not every day that CRS makes front-
page news.
    So, with that, we will close this hearing and, without 
objection, adjourn. Thanks very much.
    [Whereupon, at 11:05 a.m., the Committee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                            [all]
    
</pre></body></html>
